   United States Department of Justice
   Office of the Inspector General
   Audit Division




      AUDIT REPORT 



   MISSING CHILDREN'S ASSISTANCE 

   GRANT NUMBER 2000-MC-CX-K021 

        ADMINISTERED BY THE 

  NATIONAL CENTER FOR MISSING AND 

         EXPLOITED CHILDREN 

        ALEXANDRIA, VIRGINIA 


               GR-30-04-002 


             January 20, 2004 


  OFFICE OF THE INSPECTOR GENERAL 

 WASHINGTON REGIONAL AUDIT OFFICE 

1425 NEW YORK AVENUE, NW, SUITE 6100 

       WASHINGTON, DC 20530 

                MISSING CHILDREN'S ASSISTANCE 

                GRANT NUMBER 2000-MC-CX-K021 

                     ADMINISTERED BY THE 

               NATIONAL CENTER FOR MISSING AND 

                     EXPLOITED CHILDREN 

                    ALEXANDRIA, VIRGINIA 


                         EXECUTIVE SUMMARY 


      The Office of the Inspector General, Audit Division, has completed an
audit of the Missing Children'S AsSistance, School Re source Officer, grant
awarded by the U.S. Department of Justice, OffIce of Justice Programs (OJP),
Office of Juvenile Justice and Delinquency Prevention to the Natronal center
for Missing and Exploited Children (NCMEC). The purpose of this grant Is to
develop standards for School Resource Officers (SRO) and develop and
conduct SRO training nationwide. Between June 26, 2000 and August 14,
2002, the NCMEC was awarded a total of $10,993,363 of which Fox Valley
Technical College was authorized to receive $8,411,398 as a single-source
provider.

      We reviewed the NCMEC's accounting records to determine whether
the grantee adhered to ail financial and administrative conditions of the
grant award and If costs charged to the grant were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, and tenns
and conditions of the agreement.

       We found that the NCMEC complied with the OJP grant requirements.
Our audit revealed that adequate controls were taken over the accounting
process and records relating to the grant. We determined that costs claimed
for reimbursement were ailowable, supported, and In accordance with
applicable laws, regulations, guidelines and terms and conditions of the
grant.

     Our audit obJectives, scope, and methodologV appear In Appendix J.
                                    TABLE OF CONTENTS 



INTRODUCTION ................................................................................ 1 


  BACKGROUND ••••• •••••••••••.•..............••••••••••••••••• •.• ••• ....•••••••• •••••••••••••• •••   1


AUDIT RESULTS •••••••••••••••.•. ..................... •.. •. .....••••. ••••••••••••• •••••••••• ••• 4 


  FINANCIAL STATUS AND PROGRESS REPORTS •••••••••••••••••••••••••••••••••••••••••••• 4 


  GRANT DRAWDOWN$ ••••••••••••• •••••••••••• ••• ••• ••• ••••••••• •••••• •••••••••••••••.•••...•••       7


  BUDGET MANAGEMENT AND CONTROL •.•••••••••••••••••••• •••••• •••••• ••••••••• ••••••• • 10 



  GRANT EXPENDITURES................................................. .... ............... ... 11 



  MONITORING OF SUBGRANTEE .. . ........ ...... . ................. ....... ................... 12 


  SUMMARY ...... ........ ...................... .......... ......... ........... ......... ........ .... 13 



APPENDIX I OBJECTIVES, SCOPE & METHODOLOGY ........................ 14 


APPENDIX II OJP'S REPSONSE TO THE DRAfT REPORT ................... 15 


APPENDIX III NeMEC'S RESPONSE TO THE ORA" REPORT ..... ....... 16 

                             INTRODUCTION
       The Office of the Inspector General, Audit DivisIon, has completed an
audit of the Missing Children's Assistance, School Resource Officer, grant
awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs
(OJP), Office of Juvenile Justice and Delinquency Prevention (OJJOP) to the
National Center for Missing and Exploited Children (NCMEC) located in
Alexandria, VIrginia. The purpose of this grant Is to develop standards for
School Resource Officers (SRO) and develop and conduct SRO training
nationwide. Between June 26, 2000 and August 14, 2002, the NCMEC was
awarded a total of $10,993,363 to ensure that SROs have the necessary
tools, resources, and skills to perform their functions and duties in a
comprehensive and effective manner.

       We performed audit work at the NCMEC where we obtained an
understanding of the NCMEC's accountIng and procurement systems, and we
reviewed grant expenditures. In addition, we reviewed grant documents
including the application, grant awards, budgets, financial status reports,
and progress reports. We also interviewed key individuals regarding grant
activities, and determined the NCMEC has no program income or matching
fund requirement. As of July 31, 2003, the NCMEC's records showed a total
of $6,211,075 in grant related costs, of which the OJP reimbursed
$6,114,000 (98.4 percent) through July 31, 2003.

Background
       One response to the recent increase In school violence and crime as
well as increased concern about the safety of students, teachers, and school
administrators is the proliferation of law enforcement officers on schools and
campuses throughout the country. The SRO programs have been
established nationwide to provide Increased security to schools, prevent or
reduce the incidence of school crime and violence, and Improve police-youth
relations . These programs have resulted In the aSSignment of thousands of
SROs to schools and campuses across the country. Many of these SROs are
not familiar with, adequately trained in, or fully equipped to work In school
settings or In the larger juvenile-justice and community settings.

      TO ensure that SROs have the necessary tools, resources, and skills to
perform their functions and duties In a comprehensive and effective manner,
the U.S . Congress provided funding to the NCMEC to establish SRO
standards, and develop and conduct SRO training nationwide. Congress
appropriated $S million to NCMEC In the FY 2000 appropriation bill per Public
Law 106-71 to accomplish these goals under t he direction of the Office of
Community Oriented Policing Services (COPS). The COPS Office transferred
$5 million to the OJJDP for the NCMEC. According to the NCMEC
management, the NCMEC did not request the appropriation, and they were
unprepared to perform the initiatives of the grant when the Center was
notified of the appropriation. The NCMEC prepared the grant application
after the $5 million was appropriated by Congress. In FY 200 1, Congress
again funded the program under COPS, but the NCMEC did not expend funds
fo r the project. Due to the NCMEC receiving the initial grant award at mid­
year and the time required to develop the training courses, the NCMEC was
appropriated more funds than activity at the time required. I n FY 2002,
Congress appropriated another $3 million for the SRO program; however,
responsibility was transferred to OJJDP from the COPS office at the request
of NCMEC with the concurrent approval of OJJDP and COPS .

     As of August 14, 2002, the OJP/OJJOP awarded t he NCMEC a total of
$10,993,363, as follows:

           AMOUNTS AWARDED TO THE NATIONAL CENTER 

             FOR MI SSING AND EXPLOITED CHILDREN 





     The OJP/OJJOP awarded the NCMEC the grant to:

  • 	 Enable all organizations In the community, schools, and the juvenile
      justice system to take the Initiative and leadership for establishing or
      Improving their SRO program.

  • 	 Assist organizations in building organizational capacity and
      competence for establishing and maintaining an SRO program.

  • 	 Assist agencies and organizations In developing policies, legislation,
      and procedures for an Improved SRO program.

  • 	 Demonstrate best practices and develop national standards for
      Improving services to children and protecting children, families,
      schools, and the community through Interagency collaboration and
      partnerships.




                                     2

       The grantee's award authorized single-source utilization of Fox Valley
Technical College (FVTC), located in Appleton, Wisconsin, as Its contractor
for curriculum development, administrative support of logistics, and delivery
of training for the SRO Training and Technical AsSistance Program. Of the
$10,993,363 grant, FVTC's approved budget was $8,4 11,398, or 77 percent
of the total award amount.

      We reviewed grant fund s expended directly by the NCMEC. We
excluded grant funds expended by FVTC since the focus of our audit was to
review grant expenditures under the direct control of the prime grantee, the
NeMEc. A Single Audit of FVTC was conducted in accordance with the Office
of Management and Budget (OMB) Circular A-133 and revealed there were
no internal con trol weaknesses or Instances of noncompliance with laws and
regulations rep orted by the Independent auditor.

       The objective of the audit was to determine whether the grantee
adhered to all finan cial and administrative conditions of the grant award and
if costs charged to the grant were allowable, supported, and In accordance
with applicable laws, regula tions, guidelines, and terms and conditions of the
agreement.

      We provided the draft report to OJP and NeMEC for comments. OJP's
response appears in Appendix II and NeMEC's response appears In
Appendix III. After discussion with NCMEC management, we have
incorporated the revisions to the budget categories as agreed upon.




                                     3

                            AUDIT RESULTS

     For the items tested, the grantee adhered to aU financial and
     administratIve conditions of the grant award. Further, we found that
     the costs charged to the grant were allowable, supported, and in
     accordance with applicable laws, regulations, guidelines, and terms
     and conditions of the agreement. Expenditures were properly
     accounted for, supported, and allowable under the terms and
     condi tions of the grant. We found no weaknesses in the NCMEC's
     accounting records.

Financial Status and Progress Reports

       For the peri od April I, 2000 through June 30, 2003, we reviewed
financial and progress reports for timeliness and accuracy. Following are the
results of our review.

      Financial Status Reports - The grantee prepares the Financial
Status Reports (Standard Form (SF) 269A) from the Trial Balance that is
generated from the NCMEC accounting system. Once the report Is reviewed
and signed by Vice President and Chief Financial Officer, the report is
forwarded to OJP, normally within 45 days after the end of the quarter.
Based on the period of performance of the grants, the NCMEC was required
to submit 13 reports covering the period April I , 2000 through June 30,
2003. According to the OJP Financial Guide, the grantee Is required to
submit the SF 269As to the OJp within 45 days of the end of each calendar
quarter. We found that the NCMEC submitted to the OJ P all 13 of the
required SF 269As within the 45-day deadline, and that all 13 reports were
accurate, as follows:




                                    4

      ANALYSIS Of THE TIMELINESS I; ACCURACY Df Sf 269AS
                                                     Amount per
 ~~~j--, Due            Date to     Amount Per       Accounting




       Progress Reports - According to the Director of Training, information
for the progress reports is complied from class rosters provided by the FVTC
and documentation in the office. Each progress report addresses activities
pertaining to the grant (I.e., courses held and technical assistance provided) .
Based on the grant project period, the NCMEC was required to submit seven
progress reports . According to the OJP Financial Guide, progress reports are
to cover the six-month periods ending June 30 and December 31 of every
year for the life of an award and must be submitted within 30 days after the
end of a reporting period. However, the Vice President and Chief Operating
Officer for the NCMEC prepares and submits the progress reports quarterly
versus semi-annually as the OJP Financial Guide directs. Therefore, the
NCMEC submitted 13 progress reports. We reviewed the reports and
determined that all 13 of the progress reports were submitted timely and
accurately depleted grant activity . The results of our assessment follow:




                                      5

                                                                    Training - 84
                                      attendees
                                  •   Legal Assistance
                                  •   Presentations at Children's Advocacy Center
                                  •   Presentation at National Council of Juvenile

                                                "
                                  ·
                                  •
                                                      ;
                                      today presentation In l eWiston, NY
                                  •   4 presentations at Ohio Juvenile Officers
                                      Association Confe rence
                                  •   2 workshops at PA Crime Prevention Officers
                                      Associat ion Conference

           9/30/0 1   10/11/01    •   SRO       I I  - 2 10 attendees
                                                           1
12/31/01   12/31/01               •   SRO Training -        attendees
                                  •   Crime Prevention Through Environmental
                                      Design (CPTEO) Training - 126 attendees
                                  •   CEO Tra lniog - 61 attendees
                                  •   Site plan reviews
                                  •   Presentation at WI State Dept of Juvenile

           3/31/02    4/9/02      •   SRO Tra ining - 140
                                  •   CPlEO Tr.!llnlog - 48 attendees
                                  •   CEO Tr.!l ining - 81 atte ndees
                                  •   Safe SChoolS I nte r.!lgency Team Planning (STP)
                                      Training
                                  •        Elements for Effective School Policing (KE)


                                  •
                                         "
                                      KE Training - 94 attendees
                                  •   CPlEO Tr.!linil'l9 - 94 attendees
                                  •   CEO Tra ining - 111 attendees
                                  •   STP Tr.!llning - 120 attendees
                                  •   6 presentations at TN School Resource T".IoI""
                                      Progr~m
                                                                                         I
                                  •   3 prese ntations In New Orleans, LA
                                  •   CPTfO review of 4 schools
                                  •   Review of Letter of Agreement for San Marino
                                      SChOOl District




                                 6

                                                      i i
                                       •	   KE Tro!lining - 97 o!Ittendees
                                       •	   CPTEO Tro!llnlng - 82 attendees
                                       •	   CEO Tro!llning - 89 attendees
                                       •	   STP Training - 31 attendees
                                       •	   CPTED review of 3 schools
                                       •	   NCMEC/FVTC consultants provide Instruction
                                       •	   NCMEC consultant served as keynote speaker
                                       •	   Overview of SRO initiative
                                       •	   NCMEC/FVTC attend seminar in San Francisco,
                                            CA
                                       •	                           provide instruction In


                                                     ;
                                       •	   KE Training - 78 o!Ittendees
                                       •	   CPTEO Training - 44 o!Ittendees
                                       •	   CEO Training - 43 attendees
                                       •	   Sample Memorandum of Understanding (MOU)
                                            to Clyde, OH; Kemmerer, WY ; and RlternOl.lr,
                                            MO
                                       •    Craft MOU to Toledo, OH and   5.,,,,-,(.,,,,-, ('R I
                                       •    Meeting
                                                    I


                                       •
                                       •	               - 32 attendees
                                       • 	 Sample      'to Ashlank, KY; Brownsville, TX;
                                           Clyde, OH; Lafayette, CO; Levy County, FL;
                                           Mascoutah, IL: Panbrooke, NC; Reidsville, NC;
                                           and         SO

                                       •	   SRO Training - 46 attendees
                                       •	   KE Training - 38 attendees
                                       •	   CPTEO Training - 39 attendees
                                       •	   Sample MOU's to Canyon, TX; Galveston, TX;
                                       •	   Gulfport, MS; Inverness, FL; Louisvltle,
                                            Mascoutah, IL; Ralnboc City. AL; and St.




Grant Drawdowns

     The NCMEC uses the OJP Phone Activated Paperless Request System
(known as PAPRS) process to drawdown grant funds telephonically . Once
the NeMEC completes the telephonic request, the funds are automat ically
deposited into the NCMEC's bank account within 48 hours. The NCMEC


                                   7
follows a process of requesting drawdowns based on expenditures recorded
In the general ledger plus anticipated cash needs for the immediate future.
The Accounting Manager maintains a spreadsheet that reflects a continuous
account total of all grant expenditures (revenue accrued) and drawdowns
(letter of credit draws). The amount of grant expenditures is updated from
the Trial Balance as they occur, and the amount of drawdowns Is updated as
a request for drawdown Is completed . The Accounting Manager determines
the timing and amount of a drawdown by takIng into account expected
expenditures within the next few days and the amount of the positive
balance of revenue accrued and letter of credit draws. This method complies
with the OJP Ananclal Guide which states, "Recipients should time their
drawdown requests to ensure that Federal cash on hand Is the minimum
needed for disbursements to be made immediately or within a few days. "

      USing the OJP Grant Payment History and Trial Balances for the period
June 2000 through August 2003, we conducted an analysis to determine
whether the grantee had receIved excess funds. Our analysis disclosed that
the grantee had requested excess funds as of November 2001. Since this
did not correlate to the Accounting Manager's spreadsheet, we reviewed the
OJP Grant Payment History to determine whether the NCMEC's accounting
records reflected the same amount of grant drawdowns. The Accounting
Manager stated that the drawdown In the amount of $500,000 dated
November 21, 2001 should not be attrIbuted to thIs particular grant. The
Accounting Manager provided a letter dated November 14, 2001, addressed
to the OJP requesting a manual draw of funds In the amount of $500,000
from grant number 2000-MC-CX-K020. A letter was sent to the OJP dated
December 6, 2001 requesting that this drawdown be applied instead to grant
number 98-MC-CX-K002. This particular drawdown was erroneously applied
to grant number 2000-MC-CX-K021 by the OJP. The Accounting Manager
sent a letter to the OJP on September 5, 2003, addressing this error In an
attempt to have the drawdown applied to grant number 98-MC-CX-K002
versus 2000-MC-CX-K021.

      After we reconciled the drawdown amount to the accounting records,
we reviewed the support for the cumulative drawdown of $6, 114,000 the
NCMEC received from the OJP through July 31, 2003, as shown In the
following table.




                                   8

                    Drawdowns
Year   Date        Less




              9

                                                             Drawdowns
 Year                                                       Less




      The only times when the NCMEC showed drawdowns in excess of
expenses were in August 2001 and April 2002 as shown by the shadowed
numbers In the preceding table. We consider those instances to be
immaterial when compared to the total grant drawdown activity. We
determined that the drawdowns were adequately supported and that funds
were drawn in accordance with federa l requirements . Therefore, we
consider the drawdown methodology used by the NCMEC to comply with the
QlP requirements.

Budget Management and Control

      We compared t he grant award budget to actual costs to determine if
any deviations existed . Our review disclosed no significant deviations
between t he amount budgeted and the actual costs for each cost category.
The following table presents the budget as originally approved by the OJP.

                                                            Budget
                                Grant         Total          Less
                 ~--k-




                                   10 

      Based on OJp guidance, grantees are permitted to transfer among
budget categories no more than 10 percent of the total grant budget, or
$1,099,336, without prior approval from OJP. As demonstrated by the
amounts above, the NCMEC expended $1,424 beyond the budgeted amount
for equipment and $4,165 for the ~other'" category for a total of $5,589. The
amount Is within the budget transfer authority permitted by alP; therefore,
we take no exception to the method of budget transfer used by the NCMEC.

Grant Expenditures

      To determine the accuracy and allowabllity of costs charged to the
grant, we reviewed the accounting records for personnel costs, direct costs,
and accountable property. Personnel costs are comprised of salaries and
fringe benefits. Direct costs are all expenditures charged to the grant less
personnel costs. Of the $6,211,075 total project costs as of July 31, 2003,
$4,856,012 (78 percent) was expended by the FYTC and $1,355,063 (22
percent) was expended by the NCMEC. Following are the results of our
review.

      Personnel Costs - We reviewed $276,877 in personnel costs,
representing 20 percent of total project costs expended by the NeMEc.
Specifically, we selected and reviewed all personnel transactions charged to
the grant for two judgmentally selected non·consecutive pay periods (pay
periods ending April 19, 2002 and March 7, 2003) totaling $10,474
(4 percent).

       Our review of tlmesheets disclosed that the Associate Director was
paid overtime; however, overtime costs were not pre·approved for this
grant. OMB Circular A·122, ~Cost Principles for Nonprofit Organizations",
allows overtime when lower overall cost to the federal government will
result. We determined that the Associate Director was paid a total amount
of $18,576 In overtime pay for the period June 20, 2001 through
July 31, 2003. Based on the ASSOCiate Director's annual salary, the amount
paid In overtime is lower than the NCMEC would have paid to employ
another individual to perform the tasks thereby resulting in lower overall
cost to the Federal government. Additionally, according to the Initial and
supplemental grant budget, the salary for the position of Program Legal
Assista nt was approved for the total amount of $173,399. However, NCMEC
management stated that this position was never filled because program
activity was lower than expected . This allowed the NCMEC to remain within
budget for the salaries cost category even though overtime was Incurred.
Therefore, we determIned that labor charges were computed correctly,



                                    11 

properly authorized, accurately recorded, and properly allocated to the
grant.

       Our review of fringe benefit costs disclosed that fringe benefits were
billed at a rate of 26 percent for the budget period ending May 31, 2002. As
of July 31, 2003, fringe benefits were billed at a rate of 25 percent. We
determined that the fringe benefit costs were properly charged to the grant
In accordance with the grant budget, and the fringe benefit charges were
consistent with charges for other employees.

      Direct Costs - We reviewed $1,078,186 in grant expenditures,
representing 80 percent of total project costs expended by the NCMEC.
Specifically, we judgmentally selected and tested 50 transactions totaling
$551,931 (51 percent) for travel/mileage, office supplies, computer supplies,
postage, telephone, and conferences. We determined all costs charged to
the grant were authorized, properly classified, accurately recorded, and
properly charged to the grant.

      Accountable Property - We reviewed the 37 equipment items
purchased with grant funds totaling $53,324. We judgmentally selected six
Items totaling $29,333 (55 percent). We determined that all the sampled
items were Included in the NCMEC's inventory and Identified as property
purchased with federal funds. Additionally, we physically verified the
property Included in the sample and determined that the property is being
used for the purposes stated in the grant.

Monitoring of Subgrantee

      The grantee's award authorized single-source utrlization of FVTC as its
contractor for curriculum development, administrative support of logistics,
and delivery of training for the SRO Training and Technical Assistance
Program . Of the $10,993,363 grant, the FVTC's approved budget was
$8,411,398, or 77 percent. As of July 31, 2003, the FVTC expended
$4,856,012, or 58 percent of its budgeted funds. We d id not review the
FVTC's expenditures; however, we did review the NCMEC's monitoring
procedures for the FVTC. The NCMEC closely monitors the FVTC's progress
and the invoices submitted for services provided by the FVTC. I n addition,
the NCMEC monitors the FVTC's performance by reviewing their current
Single Audit reports for findings and corrective action. We concluded that
the NCMEC has taken appropriate steps to ensure that the ·FVTC complies
with audit requirements.




                                    12 

Summary

     For the Items tested, the grantee adhered to all financial and
administrative conditions of the grant award. Specifically, we found:

      • 	 the required financial status and progress reports were submitted
          on time, and all reports were accurate;

      • 	 the grant drawdowns are adequately supported, and the grantee Is
          managing grant receipts in accordance with federa l requirements;

      • 	 no significant deviations between the amount budgeted and the
          actual costs for each cost category;

      • 	 the costs charged to the grant were accurate and allowable; and

      • 	 the grantee has taken appropriate steps to ensure the subgrantee
          complies with audit requirements.




                                    13 

                                                                APPENDIX I

                OBJECTIVES, SCOPE AND METHODOLOGY

      The objective of the audit was to determine whether reimbursement
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, gu idelines, and terms and
conditions of the grant.

      We conducted our audit In accordance with Government Auditing
Standards and included such tests as were necessary to accomplish our
objectives . Our audit concentrated on, but was not limited to, the Inception
of the grant through July 31, 2003. The grant audited was Missing
Children's Assistance, School Resource Officer, Award Number
2000-MC-CX-K021.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audited against is contained In the OJP Financial Guide. We tested the
NCMEC's grant activities In the following areas: financial status and
progress reports, drawdowns, budget management and con trol, program
income, local match, grant expenditures, monitoring of subgrantees, and
compliance with regulations.

       We did not test internal controls for the NCMEC as a whole or
specifically for the grant, which was included In the audit of the NCMEC
conducted by an Independent Certlfied Public Accountant. The results of this
audit were reported in the Single Audit Reports that accompanied the
Consolidated Financial Statements and Independent Auditor's Report for the
year ended Oecember 31,2002. Additionally, the subcontracted funds to
the FVTC were Included In the audit of FVTC conducted by an Independent
Certified Public Accountant. The results of this audit were reported In the
Single Audit Reports that accompanied the Comprehensive Annual Financial
Report for the year ended June 30, 2002. The Single Audit Reports were
prepared under the provisions of OMB Circular A- 133. We reviewed the
Independent auditor's assessments to identify control weaknesses and
significant noncompliance Issues related to the grantee or Federal programs.
The Independent auditor's assessments disclosed no control weaknesses or
significant noncompliance Issues related to the NCMEC grant. In addition,
we performed limited testing of source documents to assess the accuracy of
reimbursement requests and financial status reports; however, we did not
test the reliability of the financial management system as a whole.




                                    14
                                                                                                     APPENDIX II
                OlP'S RESPONSE TO THE DRAFT REPORT




JAN H2O&; 

MEMORANDUM TO:




SUBJECT, 	                     Dn1\ Rqort fo< lilt A..c!i. of
                               Gnrd N~ lOOO-MCCX·KOlI

TbiI; _ _ _ ilm~IO,.,...""" 'I' 1·...... datedDoccmb<lr4, !003, ........""'" 

tbt obo....... cfa                                        c..ar
                       t ohft audit rq>OtI fur !he NIIIioool        fur Miosiqg ... l!;..:pIoictd 

Cbildtat. Tho dnotI a>dit """'" <fid.1I(JI illdudo ...,. 6no:IiD£s ......"".......... -. We do "'" 

110....., ..""........ "" tbt dnft <ep<Ul. 


We ..... -ott tbt opporI\ItIil)' tI> l'Ovino.,.:l """""'"" OD Ibo droit report. If '011 bnoo 01\)"
qucoti.".. .. i<quho oMiti"".1 iII&.n:notion. pl.- """'""" AliJba M. ~ of...,. sta!f OIl
(:102)616-2916.

<c: 	   VockIeL.SIo.
        DOl AIIdlt LW­




        _
        -­ ........ 

        om.., of ""'=111 JUSIkc and Oo!iDqUdlDC)' ~
        OJ, Eacut:iYJ: Sec:marioI
        Contn>I NImIbor 2OOlll'l




                                                  15 

                                                                                                                                                       o
                                                                                                                                           f 01
                                                                                                                                           p~.
         ! f f~g6' 	                                                                                             a a
                                                                                                                 i- f
­                ~,Hl
         p~~~! 	                                                                                                 ......                :- . , =-}" ,
                                                                                                                                                   '
                                                                                         ;,            ;,        • •                      "I '                             z
                                                                                         Ii - -
                                                                                         j             j         ~ §                      ~  -i                            n
                                                                                                                                                                           ~
                                                                                                                                                                           m
                                                                                                                                                                           n
                                                                                             ";-· <I "ll::r :.: ·                                     " ."".                •
                    "                   H            "!'
                                                     ~..
                                                     ..                                      "i:.~o .. ,
                                                                                             ...             .. c..       ..l
                                                                                                                                             :' ;: f' " .....

                                                                                                                                       ! 	 ....... :l; " . 	
                    "                                ~ ~
                                                      :
                                                 .. .--..                     ~              ",...               _n       ....          • ". ...                           ~
                                                                                                                                                                           '"
                                        ;,,~                      ·~i·-~
                                                                                             .. :S'::i,;.t ..                                                              m
               --,                                       :~:                ,,~              .. "",,iI. ¥ ~.                             " 1
                                                                                                                                       • 11",i!        0 ..... 	
                                          " " ' i at
               ,.                       :!: ~                                                                                               "';l''' "8            •	
                                          .-                                                                                                                               ~
               '"                       " •... !·i'::i"~!.                                   :;- '." ~ . " ! .
                                                                                                   , ~ _-~
               ~"'f                                                                                                                    •                                   '"
                                       , -           ~::~ -::~it"::l      ..
                                                                                         ....
 , !' ~ ii:;; 	
                                                                                             ~-              ~S'                                                           o
                                                        > ... x _ _                      .. 
 ,
                                                             ~
               1~;
               --
               :< ~e
                                        ·..
                                       '3 g
                                                ...... ... ""-! ......... 1"1 a !"' : .....:. ...
                                                S'   ~,,;        ~h~2
                                                                  ~
                                                                                    :!
                                                                                             ".:
                                                                                             ·~I>~:;-I:""~I·
                                                                                                                 ;;;f~_.ll                                                 z
                                                                                                                                                                           m
~    	                                                                                                                                      OJ -
                                                                                                                                            0-         •••
                                                                                                                                                              "
                                       ·-. """ ' ,
                                                                            ~"               .. <>"'c              .........
               <>     .0 11 "
                                                                                                                                                                           '"
                                        ••               1:, ••   -r"- ~
                                                                      .............
                                                             :--::~:s."o
                                                         <>:;~
'"             "
               I,
                    ,                                    ~
                                                                  -
                                                                  ~~ "
                                                                            ... ,
                                                                      . -" " , ...
                                       -', ". , .-,,"" ....,,"""":: ..... .. .""j""'­ , 	
                                                     .....                                                                                       ~a':;                     c:J
                                                                                             ... ~            .. 8."0'8                          •     • 0
                                       -, . ,- , . ..
                                       "I ." ." ., .. ,
                                                                                                                                                 o     ..
                                       -, ' .... .. .......
                                        ..  ,            ~        ~
                                                              . --­ .......                                ::8"I:<"!:. rt                        :<"   ~~                  ~
                                       -                                                  ,
                                                           ...~                m
                                        ,!,
                                                                 , ~q"§·.~H9i .
                                                                                             rt    ....            ~I_ " _
               ii                      · , .. ....... -....", ;-i i '" ft"1 ,	
                                        :;-~
                                        • e                                                         ,
               I        -.;2.:;0-    •                    " ~il"
                                                  ~ 	 ::i ,:;- H.                            "·""~ · "r.i:::"                                                              "
                        ~ • :: g 	
                                                   • . .­ ". .. !'....... ~ -.

                                            1 ... I .........                                1>..                              .. ..                                       ~
                        ~"
                                                          : ... --~                                          ~          !"t' i!."
                                       '1 'I>
                                        "-                                                                                                                                 :!I
                                        ,-
                                        t" " ". !:-:; . a ....                                                I
               !           -­                                r~   ~;;:        l­                              "                                                        ,   ~
                                                                                                                                   0
                        '. ...
                        '.' £
                                     i •• !
                                        r   ~g               .g    <: ~   0"'
                                                                       ... 1" " "'.'
                                                                              ...    ...
                                                                       .. .. =" t ::I>.!j ..                  •                ~                                           m
                        ~~f~                                                 .....i!"i ...
                                                                              ~~                   ~                               ~
                                     • ,. : " 	
                                                             ~.
                          :; " .
                        ; ",.                      ! " r:;: .. ..                                             ,                                                            ~
                            0                                                                                    ....          .. 0
                        ~
                        -,      ~                            00
                                       1" , . -" _ < ·,=gn".,!'

                                                                          °i"" ......
                                                                                                              ,                                                            ~~
                                        !                                                   ,                                                                                    ~
                                        ..i
                            !           "0.                 ',~         '.                                                                                                       ~
                                       ...r ! !I §" ig :'<:.." l ;,;" i,.. .
                                        '8~              ,
                                                          .            "..                                       "...                                                            m
                                                         ...      ~   I!.           ..
                                                                                   .. . ..         !::                    _:.:~                                                  z
                                        ·..- ,,' .'- ," ""! u 1-"
                                                                                                                                                                                 ~
                                                                                                                                                                                 8
